HHS/OIG - Audit, "Audit of Californias Medicaid Inpatient Disproportionate
Share Hospital Payment for Kern Medical Center, Bakersfield, California, State
Fiscal Year 1998," (A-09-01-00098)
Department
of Health and Human Services
"Audit of Californias Medicaid Inpatient Disproportionate Share Hospital
Payment for Kern Medical Center, Bakersfield, California, State Fiscal Year
1998," (A-09-01-00098)
September 24, 2002
Complete
Text of Report is available in PDF format (5.53 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the California Department of Health Services
made Medicaid disproportionate share hospital (DSH) payments to Kern Medical
Center (KMC) that exceeded by $19.4 million (federal share) the hospital specific
limit for DSH payments as mandated by the Omnibus Budget Reconciliation Act
of 1993. This problem occurred primarily because the state:  (1) used projected
amounts instead of actual expenses and payments, (2) did not limit total operating
expenses to amounts that would be allowable under Medicare cost principles,
(3) included bad debts as additional operating expenses, and (4) double counted
charges for a program and included charges for services provided to inmates
and Kern County employees. We recommended financial adjustments and procedural
corrections. The state generally disagreed with our findings and recommendations.